OFFICE OF INSPECTOR GENERAL


AUDIT OF SELECTED
APPLICATION CONTROLS
OVER THE ANNUAL REPORT
APPLICATION SYSTEM
AUDIT REPORT NO. A-000-06-005-P
September 27, 2006




WASHINGTON, DC
Office of Inspector General


September 27, 2006

MEMORANDUM

TO:                  PPC/DAA, Walter North
                     M/DCIO, Phil Heneghan

FROM:                AIG/A, Joseph Farinella /s/

SUBJECT:             Audit of Selected Application Controls over the Annual Report Application
                     System (Report No. A-000-06-005-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included them in its entirety in Appendix II.

This report contains seven recommendations to help USAID improve its controls over the
Annual Report Application system. Based on your comments to our draft report, we consider that
management decisions have been reached for Recommendation Nos. 1, 2, 3, 4, 5, 6, and 7. For
these recommendations, please notify the Bureau for Management’s Audit, Performance and
Compliance Division when final action is completed.

I want to express my sincere appreciation for the cooperation and courtesy extended to my
staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective................................................................................................................ 3

Audit Findings ................................................................................................................. 4

     USAID Did Not Implement Effective
     Application Controls for the Annual
     Report System ........................................................................................................... 4

Evaluation of Management Comments ....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14

Appendix III – Annual Report System Description .................................................... 16

Appendix IV – Glossary of Selected Information
Security Terms .............................................................................................................. 18
SUMMARY OF RESULTS
The Information Technology and Special Audits Division of the Office of Inspector
General in Washington, D.C. conducted this audit to review selected application
controls 1 over the Annual Report (AR) Application system. The Bureau for Policy and
Program Coordination (PPC) within USAID, developed, maintained and operated the
Annual Report (AR) Application system with contractor support. (See pages 3 and 12.)

The audit found that USAID did not implement effective application controls for the AR
system. Specifically, USAID did not:

•       Perform risk assessments to identify the initial types of controls needed for the
        AR system or conduct follow-up annual assessments to monitor the effectiveness
        of existing controls (pages 4-5);
•       Prepare a security plan that documents the needed (i.e., agreed-upon) controls
        in the AR system to mitigate risk in conformance with the National Institute of
        Standards and Technology guidelines (pages 5-7); and
•       Implement selected controls, including effective password access controls, as
        necessitated by Federal requirements (pages 7-8).

These key deficiencies contributed to numerous other control weaknesses, such as not
assigning security responsibilities, requiring training for users prior to obtaining access to
the AR system, and testing contingency plans. Consequently, USAID has limited
assurance that the AR’s system controls are effectively mitigating risks of unauthorized
disclosure, modification, destruction or loss.

The primary cause for these weaknesses was that the Cognizant Technical Officer
(CTO) within the Bureau for Policy and Program Coordination (PPC) did not monitor the
contractor’s performance to ensure that the security requirements were performed and
that the CTO did not obtain the specialized training needed to support their security
responsibilities. More importantly, the Chief Information Officer’s (CIO) office did not
fully implement its oversight responsibility of monitoring the AR system to ensure that an
acceptable level of security was established. (See pages 4, 8-9.)

We made seven recommendations to help USAID improve application controls over the AR
system. (See pages 9-10.)

USAID management agreed to take corrective action on all seven recommendations in
the report. Based on management’s response, management decisions were reached on
all seven recommendations. (See page 11.)




1
 Application controls are security controls that provide safeguards to protect the computer
system and its information.


                                                                                              1
BACKGROUND
The United States Agency for International Development (USAID), Bureau for Policy and
Program Coordination (PPC), developed, maintained and operated the Annual Report
(AR) Application system with contractor support. 2 The AR system supports USAID
reporting needs by collecting and analyzing program and resource information from
worldwide operating units. First deployed in fiscal year (FY) 2002, the AR system
evolved from the Review, Results, Resource, Request (R4) preparation tool to its present
use. The AR system has since become critical for the support of budget and
performance reporting requirements and is the primary means for obtaining program
reporting documentation for the Agency.

The AR system supports the preparation of:

    •   USAID’s Congressional Budget Justification (CBJ)
    •   USAID’s Performance and Accountability Report (PAR)
    •   USAID’s Annual Budget Submission
    •   Joint Department of State/USAID’s Performance Plan
    •   USAID’s Bureau Program and Budget Submission
    •   Office of Management and Budget’s Performance Assessment Rating Tool
    •   USAID’s Workforce Planning Request Levels

The AR system also maps expenditures to strategic objectives in the Statement of Net
Costs. The changes to the AR system now being proposed include using the system to
collect the use of 39 standardized program components 3 to support USAID’s strategic
planning process.

The AR system is predominantly housed, maintained and operated by an off-site
contractor. (See Appendix III for a description of the system.)

Several legislative and policy-directed mandates define the types of controls that USAID
computer systems should have. These mandates include:

    •   The Federal Information Security Management Act of 2002 (FISMA),
        which requires the National Institute for Standards and Technology
        (NIST) to develop standards and guidelines for information systems used
        or operated by an agency or by a contractor for an agency or on behalf of
        an agency; and gives the Office of Management and Budget (OMB)
        responsibility to oversee and coordinate the development and
        implementation of NIST standards and guidelines for Federal agencies.

    •   The OMB Circular A-130, Appendix III, “Security of Federal Automated
        Information Resources” (November 28, 2000), which establishes

2
  Contract Number RAN-C-00-03-00032-00, awarded on August 1, 2003, contains a base year
and two option years. The second option year expires on July 31, 2006.
3
  Program components are the “building blocks” of USAID programs. They will be standard
across all Operating Units and have associated with them a set of common indicators to facilitate
performance management and reporting.


                                                                                                2
        minimum controls to ensure that adequate security is provided for the
        agency’s computer systems.

    •   The USAID Automated Directives System (ADS), Chapter 545 -
        Information Systems Security, which contains specific mandatory security
        policies in support of FISMA, OMB and NIST mandates.

At the start of this audit, PPC organizationally was the system owner of the AR system.
Subsequent to our audit field work, we learned that some components of the AR system
will be replaced 4 by an integrated system to support the Department of State’s Office of
the Director of U.S. Foreign Assistance (F). Several USAID PPC personnel who had
supported the AR system have been moved into the F bureau to assist in integrating
USAID’s AR system and the Department of State’s Country Operational Planning and
Reporting System. As a result of these changes, the recommendations made in this
report should also be considered when implementing the new system.

AUDIT OBJECTIVE
This audit was added to the OIG’s annual audit plan to answer the following question:

        Did USAID implement effective application controls for the Annual Report
        (AR) Application system?

A description of our scope and methodology is contained in Appendix I.




4
  The components for replacement or integration are planned to be identified and evaluated in the
remaining part of calendar year 2006.


                                                                                               3
AUDIT FINDINGS
Although USAID through its contractor implemented some security controls, it did not
implement effective application controls for the Annual Report (AR) Application system.
Among the controls USAID’s contractor did implement were physical access restrictions to
their computer room, the performance of data backups of the AR system, and the
development of limited edit checks and password control capabilities within the AR
system. USAID also developed security policies and procedures to support information
technology acquisitions and conducted ad hoc training for AR system users.

However, USAID did not implement effective application controls for the AR system. As
described below, USAID did not (1) perform risk assessments; (2) prepare a security plan
which may include identifying the AR system as a major application; and (3) implement
selected controls, including effective password controls, as mandated by Federal
requirements.

The risk assessment, security plan, and passwords are critical key controls that serve not
only to support other application control categories (i.e., audit and accountability controls),
but also to define and manage the risks of the AR system and the information it contains.

USAID Did Not Implement Effective
Application Controls for the AR System
 Summary – USAID did not implement effective application controls for the AR system.
 Specifically, USAID did not (1) perform risk assessments, (2) prepare a security plan,
 and (3) implement selected controls, including effective passwords, in accordance with
 the Federal Information Security Management Act (FISMA), the Office of Management
 and Budget (OMB) and USAID requirements. This occurred because the Office of
 Policy and Program Coordination (PPC)—the system owner— (1) did not monitor the
 contractor’s performance to ensure that the security requirements were performed
 and (2) obtain for the Cognizant Technical Officer (CTO) the specialized training
 needed to define and support their security responsibilities. In addition, USAID’s
 Chief Information Security Officer did not conduct oversight reviews to re-evaluate the
 system as it evolved and ensure that minimum security requirements existed for the
 AR system. Consequently, USAID places the confidentiality, integrity and availability
 of the AR system and data at risk of unauthorized disclosures, modifications,
 destruction or loss.


Risk assessments are needed for the AR system - The purpose of an initial risk
assessment is to identify risks to the computer system and the information contained in it
so that appropriate controls can be defined and implemented to reduce or eliminate those
risks to an acceptable level. Performing subsequent assessments helps ensure that
controls are working as intended. Federal agencies that utilize contractors to install
and/or maintain computer systems are fully responsible and accountable for ensuring
that FISMA and related policy requirements are implemented, reviewed, and included in
the terms of the contract.




                                                                                             4
   •   FISMA (section 3544) requires Federal agencies to conduct periodic assessments
       of all systems, including systems and information managed by a contractor on
       behalf of the agency, at least annually.

   •   USAID’s policy ADS 545.3.1.4 Risk Management states that the individual
       responsible for daily and operational management of each specific system must
       (1) conduct an initial risk assessment for each information system using USAID
       published procedures and guidelines, (2) conduct follow-up risk assessments
       annually, or whenever the system or its operating environment significantly
       changes; and (3) take corrective actions to mitigate vulnerabilities detected
       during risk assessments.

However, PPC (the system owner) did not conduct risk assessments in accordance with
FISMA requirements and USAID policy. Specifically, the Cognizant Technical Officer
(CTO) responsible for monitoring the contract did not ensure that initial and subsequent
annual assessments of the AR system were performed and appropriately documented.
Further, the CTO was not fully aware of FISMA and USAID requirements to perform risk
assessments. (This is discussed in more detail in the “Causes and Impacts of Problems
Identified” section of the report.)

A system security plan is needed for the AR system – A system security plan
(Plan) is a formal document that provides an overview of the security requirements and
describes the security controls in place or planned for meeting those requirements.
The Plan defines the agreed-upon controls that the AR system should have to mitigate
risks.

OMB Circular A-130, Appendix III, requires Federal agencies to develop security plans
consistent with NIST Special Publication 800-18, “Guide for Developing Security Plans
for Federal Information Systems,” which states in part that all information systems must
be covered by a system security plan.

Further, to develop a security plan, the system owners, in collaboration with the Chief
Information Security Officer (CISO), must decide if the AR system is covered as a
“major application” or a “general support system.” OMB Circular A-130, Appendix III,
defines a “major application” as an application that requires special attention to security
due to the risk and magnitude of harm resulting from the loss, misuse or unauthorized
access to or modification of the information in the application. The Circular also
defines the term "major information system" as an information system that requires
special management attention because of its importance to an agency mission or its
significant role in the administration of agency programs, finances, property, or other
resources.     OMB defines a general support system as a system that consists of
hardware and software to provide general data processing and telecommunication
support for a number of applications (e.g., the local area network).

However, as discussed in the following sections, USAID did not (1) develop a security
plan for the AR system in accordance with FISMA, NIST and OMB requirements and
(2) consider identifying the AR system as a major application.




                                                                                              5
       The AR system security plan was not developed – ADS 545 gives the
system owners the responsibility for (1) ensuring that a security plan is prepared, (2)
implementing the plan, and (3) monitoring its effectiveness. Further, OMB directs
agencies to develop security plans that address the following:

   •   Rules of behavior
   •   Security training
   •   Personnel screening
   •   Continuity of support or contingency planning
   •   Technical security controls
   •   Review of controls, and
   •   Authorization of Processing

However, USAID did not have a security plan for the AR system. Specifically, although
the contract required the contractor to develop a system security plan in accordance
with NIST 800-18, the CTO responsible for monitoring performance of the contract did
not ensure that a Plan was developed for the AR system. (This is discussed in more
detail in the “Causes and Impacts of Problems Identified” section of the report.)

        The AR System Plan may need to identify the system as a major
application – As previously stated OMB defines the term “major application system”
as an information system that requires special management attention because of its
significant role in the administration of agency programs, finances, property, or other
resources. NIST 800-18 further states that “major applications” are by definition “major
information systems” and must have a moderate to high impact level on the agency.

In its fiscal year 2005 FISMA report, USAID did not list the AR system as a “major
information system.” As such, USAID considered the AR system as a non-major or
minor application system that runs on the general support system. However in
accordance with OMB Circular A-130 and NIST guidelines, we believe that the AR
system may meet the criteria for a “major application.”

For example, various factors—including the high visibility of the AR system process,
the criticality of its functions, and its use as a tool to prepare, among other documents,
the Congressional Budget Justification and the Agency’s resource requests—warrant,
we believe, special management attention to the system’s security as required by OMB
Circular A-130. To illustrate:

   •   USAID’s PPC acknowledges the importance of the AR system by stating in their
       FY2006 annual guidance:

               “The Annual Report application has become the Agency’s primary
               program reporting document; it is critically important for a number of
               budget and performance reporting requirements. In addition, the Annual
               Report application is one of the tools of the Agency’s strategic
               management reform and as such serves as the operational plan for all
               units. Due to the importance of the information collected in the Annual
               Report, PPC will advise senior management of all Missions that fail to
               fully meet the requirements herein.“




                                                                                             6
   •   USAID’s PPC officials stated that without the AR system, these functions could not
       readily be performed using spreadsheets and word processing programs and to do
       so would be time consuming, laborious and produce results of questionable
       accuracy. Furthermore, PPC officials questioned whether such an option could be
       supported with existing staff resources. Information provided by, and stored in, the
       AR system is critical for USAID to request funding and carry out planning and
       budgeting. One PPC official indicated that USAID operations would cease if the
       AR system became unavailable since there was no alternative to preparing
       USAID’s Congressional Budget Justification.

   •   USAID’s geographic and functional bureaus currently use the AR system for
       preparing the Agency’s Congressional Budget Justification and for their program
       planning and budgeting. In addition, the Office of Financial Management uses the
       system data for its Statement of Net Costs and for mapping USAID expenditures
       to its strategic objectives. USAID’s increased use and reliance upon the system
       has made it critical to Agency operations.

   •   Lastly, the OIG’s limited impact assessment concluded that the AR system’s
       rating is at least “moderate.” This means that the potential impact on USAID,
       should certain events occur, would be to jeopardize the information and
       information systems needed by the Agency to accomplish its assigned mission,
       protect its assets, and maintain its day-to-day functions. This impact level is
       consistent with NIST Federal Information Processing Standard (FIPS) 199,
       Standards for Security Categorization of Federal Information and Systems; NIST
       800-18, which requires major applications to have a moderate to high impact
       rating; and NIST 800-60, Guide for Mapping Types of Information and
       Information Systems to Security Categories, which correlates information to
       predefined impact levels.

In our opinion, USAID’s use of and reliance on the AR system appears to meet OMB’s
definition of a major application. The reports produced by the AR system and the
information contained within it could only be produced with increased investment, time and
effort. The loss of this system could be detrimental to Agency operations. Therefore, we
believe that USAID should consider identifying the AR system as a major application.

Implementation of security controls needed – NIST 800-18 requires agencies to
clearly identify their security controls and include a description of the considerations
made for implementing security controls. Additionally, OMB A-130 Appendix III directs
agencies to develop security plans that address specific security controls. The table on
the next page depicts selected OMB A-130 Appendix III security controls and our
assessment as to whether these controls were implemented for the AR system.




                                                                                         7
                OMB A-130 Appendix III – Selected Controls                                   Implemented
                       Required in Security Plan                                           for AR System?
Has security been assigned to a management official knowledgeable of the information
and processes supported by the application?                                                      No
Have rules been established concerning use and behavior of individuals with access to
the application to provide security to the application and information in it?                    No
Did users receive specialized training focused on their responsibilities and application
rules prior to receiving access to the application?                                              No
Have separation of duties, along with least privilege and individual accountability
controls, been incorporated into the application and application rules?                        Partially
Has contingency planning and periodic testing of the application been performed?                 No
Have independent reviews or audits of the security controls been performed at least
every 3 years?                                                                                   No
Has a management official authorized in writing the use of the application by
confirming that its security plan as implemented adequately secures the application
and reauthorizes its use at least every 3 years?                                                 No

As illustrated in the table above, USAID did not (1) assign a systems security officer to
the AR system, (2) ensure that formal rules of behavior and specialized training were
provided prior to an AR system user being granted access to the AR system, (3)
conduct periodic contingency testing of the AR system, (4) conduct independent
reviews or audits of the security controls, and (5) authorize the use of the AR system.
In addition, although USAID partially implemented the capability to separate end-users
and super-user privileges into the AR system by user identifications and passwords as
explained below, PPC did not effectively implement passwords controls.

        Effective password controls needed – OMB A-130 Appendix III, states that
agencies are required to establish controls to ensure adequate security. For example,
authentication of individual users is an important management control, for which
password protection is a control mechanism. However, password protection will only
be effective if a strong technology is employed and managed to ensure that it is used
correctly. USAID’s ADS 545.3.3.1, Identification and Authentication (Passwords)
requires the use of password standards and procedures.

Nevertheless, contrary to ADS policy, USAID did not use effective password controls.
For example:

      •   Passwords were not always required.
      •   Passwords had no expiration dates.
      •   Passwords had no requirement for complex construction.
      •   Passwords were not masked or hidden when signing in.
      •   The super-users who administer user accounts could view all users’ passwords
          within their own bureaus because the passwords were not encrypted.
      •   Some accounts had blank passwords on the database server. 5
5
    The Database Administrator promptly corrected this situation during the audit.



                                                                                                           8
Causes and Impacts of Problems Identified – This audit identified a number of
control weaknesses related to the AR system. We attribute these weaknesses to the
CTO’s need to:
    1. exercise more active monitoring of the contractors to ensure that they are
       performing their security tasks and safeguarding the AR system, and
    2. obtain specialized training that focuses on defining and supporting security
       responsibilities.
More importantly, the CISO in the Chief Information Officer’s (CIO) office needs to fully
implement his oversight responsibilities to ensure that an acceptable level of security is
established for the AR system.
The contract supporting the AR system operations, awarded in August 2003, required
the contractor to comply with OMB A-130, NIST Special Publication 800-18, and ADS
545, “Information Systems Security.” All of these guidelines and USAID policies call for
conducting risk assessments, preparing security plans, and implementing security
controls for systems. However, USAID did not implement the guidelines and its own
policies to protect the AR system. Specifically, the CTO did not monitor the contractor to
ensure that the cited requirements were done. This, in part, was due to the CTO not
being fully aware of the security requirements that should be implemented. Prior to
speaking with us, the CTO did not know that risk assessments or security plans with
implemented or planned controls were needed for the AR system. She indicated that
she had not received the specialized training for employees with significant security
responsibilities, which is required by FISMA.
In addition, ADS 545 states that the CISO must verify that the security level has been
correctly established for each USAID information system. ADS 545 also states that the
CISO must validate for each USAID information system that the appropriate managerial,
operational and technical controls have been selected and implemented by the system
owners. Although the CISO office staff conducted earlier reviews of the AR system, the
CISO did not continue to monitor the system as it evolved to ensure that an acceptable
level of security existed and that appropriate controls were implemented.
Without conducting initial and annual risk assessments, ensuring the AR system is
covered by a system security plan, and ensuring effective passwords, the Agency has
limited assurance that the AR system controls are appropriately addressing the risks
and are functioning as intended. Consequently, the confidentiality, integrity and
availability of the AR system and data are at risk and may not be protected from
unauthorized disclosures, modifications, destruction and loss.
Subsequent to our fieldwork, we learned that some components of USAID’s AR system
will eventually be phased out and replaced6 by an integrated Department of State and
USAID system to support the Office of the Director of US Foreign Assistance (F) within
the Department of State. The types of system controls mentioned in this report should
be considered in F bureau’s efforts in developing a new joint integrated system.
Therefore, we are making several recommendations to help USAID improve its
controls over the AR system.


6
 The components for replacement or integration are planned to be identified and evaluated in the
remaining part of calendar year 2006.


                                                                                               9
Recommendation No. 1: We recommend that the Office of Policy and Program
Coordination, in collaboration with the Chief Information Security Officer, re-evaluate
the categorization of the Annual Report system and determine if it should be
considered a major application system as defined by the Office of Management and
Budget and the National Institute of Standards and Technology.

Recommendation No. 2: We recommend that the Office of Policy and Program
Coordination, in collaboration with the Chief Information Security Officer, ensure that
the Annual Report system is covered by a security plan as appropriate for the
categorization of the Annual Report system.

Recommendation No. 3: We recommend that the Office of Policy and Program
Coordination, in collaboration with the Chief Information Security Officer, ensure that
a risk assessment of the Annual Report system is performed in conformance with the
National Institute of Standards and Technology guidance to assist in categorizing
and identifying the appropriate level of system controls for the Annual Report system.

Recommendation No. 4: We recommend that the Office of Policy and Program
Coordination implement the appropriate controls to protect the Annual Report
system. At a minimum, the security plan covering the Annual Report system controls
should include:

   •   Assigning security responsibilities.
   •   Establishing formal rules of behavior and providing training prior to a user
       being granted access to the Annual Report system.
   •   Conducting periodic contingency testing of the Annual Report system.
   •   Conducting independent reviews or audits of the security controls.
   •   Authorizing the Annual Report system for processing (if appropriate).

Recommendation No. 5: We recommend that the Office of Policy and Program
Coordination implement improved password controls over the Annual Report system
in accordance with Automated Directives System-545 standards.

Recommendation No. 6: We recommend that the Office of Policy and Program
Coordination provide the Cognizant Technical Officer for the Annual Report system
specialized information systems security training to help ensure that information
systems security deliverables are appropriately defined, evaluated and monitored for
performance.

Recommendation No. 7: We recommend that the Chief Information Security Officer
conduct a review of his oversight responsibilities and implement identified
improvements to ensure that the Annual Report system has continued compliance
with applicable Federal requirements.




                                                                                    10
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Deputy Assistant Administrator for the Office of Policy and Program
Coordination (PPC) and the Acting Chief Information Officer (CIO) prepared a
consolidated written response to our draft report. The consolidated response is included
in its entirety in Appendix II of this report.

USAID management agreed to take corrective action on all seven recommendations in
the report. For Recommendation Nos. 1, 2, 3, 4, 6, and 7, USAID management provided
corrective action plans and target completion dates. Additionally, a management
decision was made for Recommendation No. 5 and documentation is pending for final
action. Therefore, we consider that management decisions have been reached for the
above recommendations.




                                                                                     11
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General, Information Technology and Special Audits Division,
performed this audit in accordance with generally accepted government auditing
standards. The purpose of the audit was to determine whether USAID implemented
effective controls over its Annual Report (AR) Application system. Audit fieldwork was
conducted at USAID headquarters in Washington, D.C. and at the offices of the LTS
Corporation in the Washington, D.C. metropolitan area from November 29, 2005,
through April 17, 2006. Our scope also included input from AR system users in
overseas operating units.

In support of our audit objective, we selectively considered the following areas, among
others, in our review:

•   Risk Assessments and Security Plans
•   Access Controls
•   Audit Trials
•   Contingency Planning
•   Training

Though several contracting issues were identified during the audit, an audit of the terms
of the contract was outside the scope of this audit.

Methodology
For the purpose of this audit, application controls were defined as security controls that
provide management, technical and operational safeguards to protect the confidentiality,
integrity and availability of the system and its information. As a basis for our evaluation,
we relied primarily upon the National Institute for Standards and Technology (NIST)
Special Publication 800-53, “Recommended Security Controls for Federal Information
Systems,” as the framework for identifying the types of controls to be included in our
audit. We also used the Office of Management and Budget (OMB) Circular A-130, the
Federal Information Security Management Act of 2002 and guidance issued by the
Institute of Internal Auditors, Information Systems Audit and Control Association,
Defense Information Systems Agency, NIST Federal Information Processing Standards
Publication 199, and other NIST publications.

We interviewed direct-hires and contractors from USAID's Office of Program and Policy
Coordination, Bureau for Asia and Near East, Bureau for Africa, and the Office of
Information Resources Management. In addition, we obtained input from USAID’s
overseas missions through the use of a questionnaire.

As noted above, a survey of USAID’s overseas missions on the AR system was made
through a questionnaire sent to 66 AR system users in 15 different countries. Twenty-two
of the 66 individuals responded. This list of AR system overseas mission users was
provided by the contractor that supports the AR system. The purpose of the survey



                                                                                         12
questionnaire was to determine how these operating units managed access to and use of
the application.

We reviewed relevant laws, regulations, leading practices, and USAID policies,
procedures, and guidance. We also reviewed the Agency contract regarding the AR
system and results of other audits and reviews related to our audit objective. In
instances where documentation was not available to test, verify or support a specific
security control area, we used the responses received from Agency and Contractor
personnel as a basis for determining the security control’s effectiveness. Additionally,
we conducted a preliminary evaluation of the AR system to determine whether the AR
system could be categorized in a security plan as a major application using criteria
established in NIST’s Federal Information Publication Standard 199, supporting Special
Publications 800-18, 800-37, 800-53, 800-60 and OMB Circular A-130.

Using the above information, we identified and reported on selected security areas that
we perceived as high risk based on the significance and sensitivity of that process, the
likelihood that the particular process may not achieve its intended control objective, and
the reliance of a particular process that supports other processes. Consequently, not all
the security areas we reviewed are mentioned in the report.

A specific materiality threshold was not set for the audit. Instead, we used our judgment
in determining sampling sizes to assess the AR system since the population was too
small for statistical sampling.




                                                                                       13
                                                                          APPENDIX II



MANAGEMENT COMMENTS


                                                                 September 22, 2006

MEMORANDUM

TO:           AIG/A, Joseph Farinella

FROM:         PPC/DAA, Walter North /s/
              CIO/A, Phil Heneghan /s/

SUBJECT:      Audit of Selected Application Controls over the Annual Report Application
              (AR) System, dated August 24, 2006
              IG Report No. A-000-06-00X-P

      Thank you for your report. Below are our management decisions for the seven
recommendations in the report.

Recommendation No. 1: Re-evaluate the Annual Report (AR) system and determine if
it is a major application system.

Management Decision: PPC will conduct an evaluation of the AR system and make a
determination whether it is a major application by July 2007.

Recommendation No. 2: The AR system must have an appropriate security plan.

Management Decision: PPC will develop a security plan for the AR system by July
2007.

Recommendation No. 3: A risk assessment of the AR system should be performed to
identify the appropriate level of system controls.

Management Decision: PPC will conduct a risk assessment for the AR system by July
2007.

Recommendation No. 4: At a minimum, the IG recommends that certain AR system
controls be included in the security plan.

Management Decision: PPC will follow the new CISO guidance (to be issued by March
2007) to identify the system controls to be included in the security plan for the AR
system by July 2007.




                                                                                     14
                                          -2-

Recommendation No. 5: Implement improved password controls.

Management Decision: PPC has already implemented improved password controls in
accordance with ADS-545 standards.

Recommendation No. 6: The CTO for the AR system should receive information
systems security training to ensure that information systems security deliverables are
defined, evaluated and monitored for performance.

Management Decision: PPC will complete this training on or before November 30,
2006.

Recommendation No. 7: We recommend that the Chief Information Security Officer
conduct a review of his oversight responsibilities and implement identified improvements
to ensure that the AR system has continued compliance with the Federal requirements.

Management Decision: The CISO will conduct a review of oversight responsibilities
related to the AR system and an establish procedures to implement identified
improvements by July 2007.




                                                                                         15
                                                                              APPENDIX III



Annual Reporting System Description
For each fiscal year, various additions and modifications are made to the Annual Report
(AR) Application system by the Office of Policy and Program Coordination (PPC), with
contractor support, to meet the Agency’s reporting information needs and requirements
driven by legislation and other Federal mandates and initiatives. The information
collection process starts with the issuance of the AR guidance and an electronic
distribution of the AR system software to Agency operating units by PPC and the Bureau
for Legislative and Public Affairs. The AR guidance covers a broad range of budget
data, performance data, and narrative topics to be collected for the Agency’s various
internal and external stakeholders. The Agency’s overseas operating units receive and
install the AR system software for users at their site. There they prepare and submit
their information through the AR system back to Washington, DC, over USAID’s network
(AIDNet). In Washington, each operating unit’s submission is stored in a core database
system for the Regional Bureaus to access, review, analyze, and modify before the data
is officially submitted to PPC. When the AR information is officially finalized, PPC
extracts information from the AR system in coordination with other Agency offices to
prepare internal and external reports (e.g. Performance and Accountability Report (PAR)
and Congressional Budget Justification (CBJ)). This process is repeated annually and
generally starts during the first quarter of each new fiscal year. However, the previous
year’s information is available within the system for review and inclusion in the current
year’s submission.

The AR system is a Microsoft Windows-based client server application7. As shown in
the diagram on the next page, the core of the AR system is a central database that runs
on Microsoft SQL Server software in a contractor-supported facility located in the
Washington, DC metropolitan area. In conjunction with the core AR central database,
an AR client application (i.e., a small database program using MS Access with a user
interface) is installed on a user’s computer to input, query and submit data. A dedicated
communication line connects USAID Headquarters to the contractor facility, allowing
Headquarters personnel with the AR client application to input and retrieve data from the
AR central database. However, personnel in overseas operating units do not have direct
access to the AR central database. Each overseas operating unit, upon local completion
and approval of their input into the local AR client application, transmits its consolidated
AR client application database back to Headquarters over the Ageny’s network (AIDNet)
and through a dedicated communication line for electronic storage at the contractor’s
facility. Around mid-December, PPC, with contractor support, imports the AR client
application databases from each operating unit into the core AR central database where
it is accessed by Headquarters personnel. The AR system does not directly receive
information from any other Agency system. The diagram below represents a high-level
pictorial representation of the AR system.



7
 Client-server application: Describes the relationship between two computer programs in which
one program, the client, makes a request from another program, the server, which fulfills the
request and provides a convenient way to interconnect programs that are distributed across
different locations.




                                                                                          16
                            Overseas Operating
Washington DC               Units
Metro Area




                Network
                (AID NET)




                                                 17
                                                                    APPENDIX IV



Glossary of Selected
Information Security Terms
Access Control –     The process of granting or denying specific requests (1) to
                     obtain and use information and related information
                     processing services and (2) to enter specific physical
                     facilities.

Accountability –     The security goal that generates the requirement for
                     actions of an entity to be traced uniquely to that entity.

Application –        The use of information resources (information and
                     information technology) to satisfy a specific set of user
                     requirements.

Availability –       Ensuring timely and reliable access to and use of
                     information.

Audit –              Independent review and examination of records and
                     activities to assess the adequacy of system controls, to
                     ensure compliance with established policies and
                     operational procedures, and to recommend necessary
                     changes in controls, policies, or procedures.

Authentication –     Verifying the identity of a user, process, or device, often as
                     a prerequisite to allowing access to resources in an
                     information system.

Confidentiality –    Preserving authorized restrictions on information access
                     and disclosure, including means for protecting personal
                     privacy and proprietary information.

Information System
Owner –              Official responsible for the overall procurement,
                     development, integration, modification, or operation and
                     maintenance of an information system.

Identification –     The process of verifying the identity of a user, process, or
                     device, usually as a prerequisite for granting access to
                     resources in an IT system.

Impact –             The magnitude of harm that can be expected to result from
                     the consequences of unauthorized disclosure of
                     information, unauthorized modification of information,
                     unauthorized destruction of information, or loss of
                     information or information system availability.




                                                                                18
Integrity –              Guarding against improper information modification or
                         destruction; includes ensuring information non-repudiation
                         and authenticity.

Risk Assessment –        The process of identifying risks to agency operations
                         (including mission, functions, image, or reputation), agency
                         assets, or individuals by determining the probability of
                         occurrence, the resulting impact, and additional security
                         controls that would mitigate this impact. Part of risk
                         management, synonymous with risk analysis, and
                         incorporates threat and vulnerability analysis.

Security Controls –      The management, operational, and technical controls (i.e.,
                         safeguards or countermeasures) prescribed for an
                         information system to protect the confidentiality, integrity,
                         and availability of the system and its information.

System Security Plan –   Formal document that provides an overview of the security
                         requirement for the information system and describes the
                         security controls in place or planned for meeting those
                         requirements.




                                                                                   19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
